APPENDIX A
IN THE
COURT OF APPEALS OF INDIANA
Supervised Estate:
Lawrence T. Newman,
Appellant,
v.
Robert W. York, as
Personal Representative, et al.
Appellee.
Court of Appeals Case No.
49A05-1710-ES-2475
Order
Appellee Robert W. York, as Personal
Representative, pro se, has filed a Verified
Motion to Strike and a Second Verified
Motion to Dismiss Appeal. He further
requests an award of appellate attorney's
fees. Appellant Lawrence T. Newman, pro se,
has filed Verified Reponses to both motions.
After reviewing the motions, the
responses, the parties' briefs and appendices,
and the transcript, the Court concludes the
Verified Motion to Strike and Second Verified
Motion to Dismiss Appeal should be granted.
Having reviewed the matter, the Court
finds and orders as follows:
Al

Appellee's Verified Motion to Strike is
granted. The Second Corrected Brief of
Appellant is stricken.
Appellee's Second Verified Motion to
Dismiss Appeal is granted. This appeal is
dismissed with prejudice.
Appellee's request for appellate attorney's
fees is granted. This case is remanded to the
trial court to calculate the amount of
appellate attorney's fees Appellee is entitled
to recover.
Ordered 9/12/2018
All panel judges concur.
For the Court,
/s/ Nancy Harris Vaidik
Chief Judge

A2

APPENDIX B

IN THE
COURT OF APPEALS OF INDIANA
Supervised Estate:
Lawrence T. Newman,
Appellant,
v.
Robert W. York, as Personal
Representative,
Appellee.
Court of Appeals Case No.
49A05-1710-ES-2475
Order
Appellant Lawrence T. Newman has filed
a Verified Motion for Reconsideration of
Order Striking Second Corrected Brief of
Appellant, and a Verified Petition for
Rehearing. Appellee Robert W. York, as
Personal Representative, has filed responses
to the motion and the petition.
Appellant has also filed a Verified Motion
to Strike Appellee's Brief in Response to
Petition for Rehearing Due to Untimeliness.
Appellee has filed a response.
Finally, Appellee has requested an award
of appellate attorney's fees.
B1

[4] Having reviewed the matter, the Court
finds and orders as follows:
Appellant's Verified Motion for
Reconsideration of Order Striking Second
Corrected Brief of Appellant is denied.
Appellant's Verified Petition for Rehearing
is denied.
Appellant's Verified Motion to Strike
Appellee's Brief in Response to Petition for
Rehearing Due to Untimeliness is denied.
Appellee's request for additional appellate
attorney's fees is granted.
This case is remanded to the trial court to
calculate the amount of appellate attorney's
fees Appellee shall recover for responding to
the Verified Motion for Reconsideration of
Order Striking Second Corrected Brief of
Appellant, the Verified Petition for
Rehearing, and the Verified Motion to Strike
Appellee's Brief in Response to Petition for
Rehearing Due to Untimeliness.
[5] Ordered 11/19/2018
[6] All panel members concur.
For the Court,
Zs/ Nancy Harris Vaidik
Chief Judge

B2

APPENDIX C
In the Indiana Supreme Court
Supervised Estate of Al Katz:
Lawrence T. Newman,
Appellant,
v.
Robert W. York,
Appellee.
Court of Appeals Case No.
49A05-1710-ES-2475
Trial Court Case No.
49D13-1009-ES-40244
Order
This matter has come before the
Indiana Supreme Court on a petition to
transfer jurisdiction, filed by the appellant
pursuant to Indiana Appellate Rules 56(B)
and 57, following the issuance of a decision by
the Court of Appeals. The appellee has filed a
motion to dismiss the transfer petition.
The Court has reviewed the decision of
the Court of Appeals, and the submitted
record on appeal, all briefs filed in the Court
of Appeals, and all materials filed in
connection with the request to transfer
jurisdiction have been made available to the
Cl

Court for review. Each participating member
has had the opportunity to voice that
Justice's views on the case in conference with
the other Justices, and each participating
member of the Court has voted on the
petition.
Being duly advised, the Court DENIES
the "Petition to Transfer of Appellant." As to
"Appellee Robert York's Verified Motion to
Dismiss Petition to Transfer," the Court
DENIES the motion with the exception of
GRANTING the appellee's request for
attorney's fees. We remand this case to the
trial court to determine the amount of
attorney's fees the appellee is entitled to
recover from the appellant related to the
transfer proceedings. All other motions
currently pending before this Court are
DENIED as moot.
Done at Indianapolis, Indiana, on
4/12/2019.
/s/ Mark Massa

Mark Massa
Acting Chief Justice of Indiana
All Justices concur except Rush, C.J., who is
not participating.

C2

